APPENDIX A

Court of Appeals, State of Michigan
ORDER
People of MI v Bruce Harland Butler

Mark J. Cavanagh
Presiding Judge

Docket No.

353475

Deborah A. Servitto

LC Nos.

2011-237958-FC

Elizabeth L. Gleicher
Judges

The motion to waive fees is GRANTED for this appeal only.
The delayed application for leave to appeal is DISMISSED. Defendant has failed to
demonstrate the entitlement to an application of any of the exceptions to the general rule that a movant
may not appeal the denial of a successive motion for relief from judgment. MCR 6.502(G).
The motion to appoint appellate counsel is DENIED.
The motion to remand for an evidentiary hearing is DENIED.

\

3residingrtjudge

)AAA AA

Q

\7

1

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk, on

U\
ttv

JUN 0 3 2020
Dale

T
i.

APPENDIX B

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF OAKLAND

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
Case No. 2011-234958-FC
Hon. Rae Lee Chabot

v
BRUCE BUTLER,
Defendant.

ORDER

This matter is before the Court on Defendant’s successive motion for relief from
judgment pursuant to MCR 6.502(G). For the reasons set forth below, Defendant is barred from
filing a successive motion, and his request for relief is denied.
Defendant, having already filed a motion seeking relief from judgment, is prohibited
from filing a successive motion unless he meets the requirements of MCR 6.502(G)(2).
Specifically, Defendant may only file a successive motion based upon either a retroactive change
in the law or newly discovered evidence. Defendant argues newly discovered evidence, which
was already decided against him in prior motions. The second basis of the request to file a
successive motion is alleged retroactive change in the law purportedly caused by the United
States Supreme Court’s opinion in Carpenter v United States,

US___; 138 SCt 2206; 201 L

Ed 2d 507(2018).
Defendant’s argument is without merit. The decision in Carpenter was issued while
Defendant’s application for leave to appeal was pending with the Michigan Supreme Court.

»

Defendant sought permission to supplement his application to include an argument based on
Carpenter, and the Michigan Supreme Court granted his motion. The Court then denied
Defendant’s application for leave to appeal, finding the arguments lacked merit. The arguments
set forth in the instant motion were already considered by the Michigan Supreme Court.
Defendant is not entitled to file a successive motion for relief and the instant motion is barred by
MCR 6.502(G)(2). Therefore, Defendant’s motion is denied for lack of merit in the grounds
presented.

Dated:

OCT 1 5 2019

5

RAE IWteH^BOT, Circuit Judge

2

APPENDIX C

Order

Michigan Supreme Court
Lansing, Michigan

February 2, 2021

Bridget M. McCormack,
ChiefJustice

161783 & (20)

Brian K. Zahra
David F. Viviano
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh
Elizabeth M. Welch,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

Justices

SC: 161783

y

COA-

BRUCE HARLAND BUTLER,

Oakland CC: 2011-237958-FC

Defendant-Appellant.

On order of the Court, the application for leave to appeal the June 3, 2020 order of
the Court of Appeals is considered, and it is DENIED, because the defendant’s motion
for relief from judgment is prohibited by MCR 6.502(G). The motion for consideration
of additional authority is GRANTED, in part, but the request to consolidate or to hold
this case in abeyance is DENIED.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
Pr'I-ininrv ^ OOO 1

APPENDIX D

No Shepard’s Signal™
As of: April 9, 2019 5:58 PM Z

Butler v. Parrish
United States District Court for the Eastern District of Michigan, Southern Division
April 8, 2019, Decided; April 8, 2019, Filed
Case No. 19-10677
Reporter
2019 U.S. Dist. LEXIS 59573*
BRUCE H. BUTLER, Petitioner, v. LES PARRISH, Respondent.

Core Terms
state court, proceedings, exhausted, Abeyance, application for leave, post-conviction, corpus, convictions,
unexhausted, STAYING, prosecutorial misconduct, ineffective assistance, motion for relief, dilatbry tactics, habeas
petition, federal court, trial counsel, deny leave, good cause, meritless, remedies, plainly, raising, courts, issues,
days, difficulties, first-degree, individual's, acquisition
Counsel: [*1] Bruce H. Butler, Petitioner, Prose, MANISTEE, Ml.
Judges: HON. AVERN COHN, UNITED STATES DISTRICT JUDGE.
Opinion by: AVERN COHN

Opinion

MEMORANDUM AND ORDER GRANTING PETITIONER'S MOTION TO HOLD IN ABEYANCE (Doc. 2) AND
STAYING PROCEEDINGS AND ADMINISTRATIVELY CLOSING THE CASE
I. Introduction
This is a habeas case under 28 U.S.C. § 2254. Petitioner Bruce H. Butler, a state inmate proceeding pro se. has
filed a petition challenging his convictions for first-degree murder and possession of a firearm during the
commission of a felony for which he is serving a sentence of life without parole.
Before the Court is Petitioner's a Motion to Stay Proceedings and Hold Habeas Corpus Petition in Abeyance (Doc.
2) to permit him to return to the state courts to present an additional claim that is not yet exhausted. For the reasons
that follow, the motion will be granted.
II. Background
Following his convictions, Petitioner filed an appeal of right in the Michigan Court of Appeals raising four claims
involving evidentiary issues, ineffective assistance of trial counsel, and prosecutorial misconduct. The Michigan
Court of Appeals affirmed Petitioner's convictions. People v. Butler. No. 319548, 2015 Mich. Add. LEXIS 1649.
2015 WL 5057404 (Mich. Ct. Add. Aug. 27. 2015). Petitioner filed an application for leave with the Michigan
Supreme Court, raising the [*2] same four claims and added a fifth, seeking a remand due to the discovery of
evidence that the state's historical cellular data analysis was flawed. The court denied leave in a standard order.
People v. Butler. 499 Mich. 915, 877 N.W.2d 893 (May 2, 2016).

Page 2 of 3
2019 U.S. Dist. LEXIS 59573, *2
In 2017, Petitioner filed a motion for relief from judgment, including the fifth claim he raised only before the Michigan
Supreme Court as well as two more claims, additional theories of prosecutorial misconduct and ineffective
assistance of trial counsel. The trial court denied Petitioner's motion. The Michigan Court of Appeals denied leave
to appeal. People v. Butler. No. 342063 (Mich. Ct. App. May 31, 2018). Petitioner then filed an for leave to appeal in
the Michigan Supreme Court. While Petitioner's application for leave was pending, the United States Supreme
Court released its decision in Carpenter v. United States. 138 S. Ct. 2206. 201 L. Ed. 2d 507 (2018). Carpenter held
that acquisition of an individual's cell-site location information is a search that generally requires the government to
obtain a warrant supported by probable cause before acquiring such records. Before the Michigan Supreme Court
ruled on Petitioner's application for leave, he filed a motion in that court to add an issue based on Carpenter. The
Michigan Supreme Court denied Petitioner's [*3] application for leave to appeal but granted his motion to add an
issue. People v. Butler. 922 N.W.2d 365 (Mich. Feb. 4, 2019).
Petitioner has thus exhausted his state remedies as to his first seven claims. However, he has not yet exhausted
the Fourth Amendment issue raised by Carpenter.
III. Discussion
Petitioner asks the Court to hold this proceeding in abeyance while he returns to state court to raise his claim based
on Carpenter. A federal court may stay a federal habeas corpus proceeding pending resolution of state post­
conviction proceedings. See Rhines v. Weber. 544 U.S. 269. 276. 125 S. Ct. 1528, 161 L. Ed. 2d 440 (2005)
("District courts do ordinarily have authority to issue stays where such a stay would be a proper exercise of
discretion,") (citations omitted). In Rhines. the Supreme Court held that a federal court may stay a petition for
habeas corpus relief and hold further proceedings in abeyance while a petitioner exhausts unexhausted claims if
outright dismissal of the petition would jeopardize the timeliness of a future petition, there is good cause for the
petitioner's failure to exhaust state court remedies, the unexhausted claims are not "plainly meritless," and "there is
no indication that the petitioner engaged in intentionally dilatory tactics." Id. at 278.
Petitioner's unexhausted claim is best first addressed and decided [*4] by the state courts. The Court anticipates
no prejudice to Respondent in staying the petition. Nothing in the record suggests that Petitioner engaged in
intentionally dilatory tactics. Indeed, Petitioner's claim relies on a recent Supreme Court case which was decided
while his appeal on other post-conviction issues was still pending in the state appellate courts. Petitioner has
therefore demonstrated good cause. In addition, Petitioner's claims are not "plainly meritless." Therefore, a stay is
appropriate.
IV. Conclusion
Accordingly, Petitioner's Motion to Hold in Abeyance (Doc. 2) is GRANTED and the petition for writ of habeas
corpus is STAYED pending completion of Petitioner's state application for post-conviction review. This stay is
conditioned upon Petitioner filing his motion for relief from judgment within sixty (60) days of this order and then
filing a motion to lift the stay and an amended habeas petition (using the case number already assigned to this
case) within sixty (60) days after the conclusion of the state court post-conviction proceedings.
To avoid administrative difficulties, the Clerk of Court shall CLOSE this case for statistical purposes only. Nothing in
this order [*5] or in the related docket entry shall be considered a dismissal or disposition of this matter.
SO ORDERED.
Isl Avern Cohn
AVERN COHN
UNITED STATES DISTRICT JUDGE
DATED: 4/8/2019
Detroit, Michigan

APPENDIX E

10-47863
SEARCH WARRANT
STATE OF MICHIGAN)
)SS

*

COUNTY OF OAKLAND)

TO THE SHERIFF OF ANY OFFICER OF SAID COUNTY:
THE ATTACHED AFFIDAVIT having been duly sworn by the Affiant, Police Detective
David S. Clevenger before me this day, based on the facts stated therein, probable cause having
been found, in the name of the People of the State of Michigan I command that you enter the
following place:
Celico Partnership DBA-Verizon Wireless
ATT: Custodian of Records
180 Washington Valley Rd.
Bedminster, NJ 07921

./

Therein to search for, seize, secure, tabulate and make return according to law the following
property and thing:

The property to be searched for and seized is specifically described as: Celico DBAVerizon
Cellular phone records to include incoming and outgoing calls; SMS usage; data services
usage; date, time and duration of said service; subscriber information; sector azimuth;
tower location (latitude/longitude) for Verizon cell phone number 248 425-9225 for iisted
dates of October 5th. 2010 at 2300 hrs. (EST) until October 8th. 2010 at 2400 hrs. (EST).
This data shall be-provided-in electronic-format-and include definitions/keys for carrier.
A wave propagation map for the cell towers specified shall be provided. This information
shall be sent via email to dclevenger@cityofsouthfieId. com.

i

. ISSUED UNDER MY HAND this
/T&O'M'TA M.

day of

, 2011.

iPc:

Jfrdge/Magistrate in and feTrthe 46th
District Court,
County of Oakland, State of Michigan

' P230

i

